No.
IN THE UNITED STATES SUPREME COURT
DONALD J. KOSHMIDER, II
Petitioner,
v.
DANIEL LESATZ
Respondent
PROOF OF SERVICE
I, DONALD J. KOSHMIDER, II, do swear or declare that on this date of
September 4, 2020 as required by Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days upon:
Clerk of the United States Supreme Court
1 First Street, NE
Washington, DC 20543

Christopher M. Allen
Assistant Attorney General
Criminal Appellate Division
PO Box 30217
Lansing, MI 48909

I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 4, 2020
/s/ Donald J. Koshmider II
Donald J. Koshmider II, Petitioner

No.

IN THE
SUPREME COURT OF THE UNITED STATES

DonsJA. X KosKmtA&r^

— PETITIONER

(Your Name)

VS.

L^ajHZ,

— RESPONDENT(S)

PROOF OF SERVICE

t^^KrAi<lCrt-------- , do swear or declare that on this date,

-X*

------ , 203J), as required by Supreme Court Rule 29 I have
served the enclosed TOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

Christopher H. Allfn

Assuanf AH-orn^

Crtnerovl f.rirrnWJ
Uws'ina ,h£

302.17
ph./ST?')

I declare under penalty of perjury that the foregoing is true and correct.
Executed on is

n

,2ftM
41

deceived
JUL f ♦ 2020
ST^^SCLERK

(MIv»A/

(Signature)

